fas
|

C@OCKLE

Legal Briefs

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850
No. 20-843
NEW YORK STATE RIFLE &
PISTOL ASSOCIATION, INC., et al.,
Petitioners,
v

KEVIN P. BRUEN, IN HIS OFFICIAL

CAPACITY AS SUPERINTENDENT OF

NEW YORK STATE POLICE, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURTAE
PROFESSORS OF SECOND AMENDMENT LAW, WELD COUNTY, COLORADO, WELD
COUNTY SHERIFF STEVE REAMS, INDEPENDENCE INSTITUTE, AND FIREARMS
POLICY FOUNDATION IN SUPPORT OF PETITIONERS in the above entitled case complies

with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century

Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 7984 words,

excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 13th day of July, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
NEE J, GOSS 9 i.
7 My Comm. Exp. September 5, 2023

Notary Public

 

Odeaw Kh, Chl

Affiant

41069
